    PAYMENTS TO VENDORS BY
UNITED STATES ATTORNEYS’ OFFICES


          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division

             Audit Report 04-07
              December 2003
                PAYMENTS TO VENDORS BY
            UNITED STATES ATTORNEYS’ OFFICES

                           EXECUTIVE SUMMARY

      The United States Attorneys (USAs) are the chief federal law
enforcement officers in their jurisdictions. Their responsibilities include the
prosecution of criminal cases brought forth by the federal government, the
prosecution and defense of civil cases in which the United States is a party,
and the collection of debts owed to the federal government that are
administratively uncollectible. In support of their mission, United States
Attorneys’ Offices (USAOs) procure a variety of goods and services and
make payments to vendors.

      The objective of this audit was to determine whether payments to
vendors by the USAOs were made in accordance with federal regulations,
the policies prescribed by the Executive Office for United States Attorneys
(EOUSA), and various payment handbooks.


Audit Scope

       Our audit tested vendor payments made at EOUSA and six
USAOs — the Eastern District of New York, Southern District of Florida,
District of New Mexico, District of Oregon, District of Utah, and Eastern
District of Tennessee — using third-party drafts, purchase cards, electronic
fund transfers, and Treasury checks. EOUSA was selected with the
expectation we would review large dollar value purchases. The other district
offices were judgmentally selected to be able to review two extra large
offices, two large offices, and two medium offices.1

      In order to determine if payments to vendors made were in
compliance with regulations and EOUSA’s procedures, we used random and
judgmental sampling procedures to choose a total of 1,517 out of 30,422
transactions at the seven locations. The dollar value of our sampled
transactions totaled $2,755,123 out of a total of $31,726,084.

       1
         EOUSA defines an extra large district as an office with 200 or more full-time
equivalent positions; a large district has from 92 to 199 positions; and a medium district
has from 62 to 91 positions.

                                            i
      Our audit procedures also included reviewing delegations of
procurement authority, interviewing key personnel, and employing other
testing methods at EOUSA and the district offices sampled.


Results of Two OIG Fraud Investigations

     Recently, the OIG investigated procurement and payment frauds at
two USAOs. Both frauds involved administrative staff misusing the
government purchase card or third-party drafts to improperly acquire
personal goods and services. One fraud (over $435,000) occurred in the
Central District of California and the other fraud ($39,105) in the District of
Oregon.

      In the Central District of California, the fraud occurred because the
Chief of Support Services did not carefully review the purchase card
purchases made by a subordinate. At the conclusion of the investigation,
the administrative clerk was convicted of defrauding the government and the
Chief resigned in lieu of termination.

      The fraud at the District of Oregon was a more complicated scheme
involving third-party drafts. The Deputy Administrative Officer forged the
disbursing officer’s signature, destroyed copies of signed drafts, used
passwords of former employees, authorized drafts to be written without
supporting documentation, and entered drafts into the accounting system
that caused the drafts to be written to herself. This fraud primarily occurred
because the third-party draft disbursing officer, the Deputy Administrative
Officer’s subordinate, signed drafts without reviewing supporting
documentation. The Deputy was convicted of fraud.


Audit Results

       In summary, we found that overall the USAOs’ controls and
procedures for acquisition and payment of purchases generally were
adequate to reduce the opportunities for fraud, loss, or undetected error.
Further, our tests found the controls and procedures were generally
followed. However, we identified some instances of noncompliance at all the
offices we reviewed. Some of the occurrences of noncompliance were
similar to the noncompliance that permitted the two cases of fraud described
above to occur. Although the number and types of noncompliance that we
identified were small in relation to the universe of testing, they indicate that

                                      ii
EOUSA should take additional steps to reduce the likelihood of fraud
occurring in the future.

      One of the most significant controls in any disbursement system is the
separation of duties, i.e., the approval of purchases and the obligation and
payment of funds being performed by separate individuals. We found that,
while generally adhered to, in 42 transactions out of 1,517 tested,
separation of duties was lacking. The 42 transactions were for a total of
$47,640. In each of the transactions, one person acted as both the
purchaser and the approving official or budget officer.

       Another significant control is to have individuals involved in the
procurement and payment processes be officially designated as accountable
officers, who can be held personally liable for losses or improper payments.
We found over 140 transactions where individuals were not so designated.
These were primarily at the District of Utah, where non-designated officials
were involved in 116 transactions totaling over $40,000.

       In addition to the deficiencies stated above, other deficiencies we
noted involved approval of purchases, obligations of funds, receipt of goods,
payments, and accounting for property. Specific acquisition process
deficiencies included missing procurement forms or support for them,
procurement without written approval, procurement prior to approval, not
considering required sources first before procurement, and not determining
reasonableness of prices. We also found purchases that were technically
prohibited under EOUSA guidelines, which do not allow printing and
telecommunication expenses to be paid with a government purchase card.
However, we did not find any instances of unnecessary or unlawful
purchases.

       We also found that the Accountable Officer Signature Form, a form
designating approval authority, did not adequately identify each type of
accountable officer. In the area of delegated procurement authority, we
found no dollar limitation placed on procurements by the USAOs’ contracting
officers when making purchases from specific government agencies. We
discovered that the procurement forms developed at the USAOs did not
always contain the required elements to fully document the procurement
requirements. In our judgment, the procurement form used by the
Southern District of Florida was superior to the procurement forms used by
other district offices in that it contained virtually all of the required elements
and is used for all purchases. Among several things, the Florida form
documents contractor and open market information, justification for not
using a small business, accessibility standards, energy efficiency, and price

                                      iii
reasonableness and basis. The form thoroughly documents the required
data elements for a purchase transaction.


Recommendations

      This report contains seven recommendations designed to improve
compliance with established acquisition and payment regulations and
procedures by enhancing existing forms and monthly statements used in the
acquisition and payment process, expanding EOUSA’s review process, and
reviewing current acquisition and payment limits. We also recommend
improved documentation of the actions taken by accountable officers.




                                  iv
                             TABLE OF CONTENTS

                                                                                               Page

INTRODUCTION .................................................................................1
    Background................................................................................ 1
    Audit Objective ........................................................................... 1
    Efforts by OMB ........................................................................... 2
    EOUSA’s Evaluations and Review Staff’s Reviews............................. 2
    OIG Investigations of Procurement and Payment Frauds................... 3

FINDINGS AND RECOMMENDATIONS.................................................7
1.     ACQUISITION AND PAYMENT PROCEDURES ..............................7
       Separation of Duties.................................................................... 8
       Lack of Designation of Accountability ............................................. 8
       Approval of Purchases ............................................................... 10
       Obligation of Funds ................................................................... 11
       Acquisition Process.................................................................... 11
       Receiving................................................................................. 16
       Payment for Purchases .............................................................. 17
       Accountable Property................................................................. 22
       Conclusion ............................................................................... 23
       Recommendations..................................................................... 24
2.     LOCALLY DEVELOPED PROCUREMENT FORMS..........................25
       Southern District of Florida’s Procurement Form ............................ 27
       Conclusion ............................................................................... 28
       Recommendation ...................................................................... 28

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......29

APPENDICES....................................................................................30
    Appendix I   - Objectives, Scope, and Methodology ...................... 30
    Appendix II - Southern District of Florida’s Procurement Form....... 36
    Appendix III - Executive Office for United States Attorneys'
                    Response to the Audit Recommendations................ 41
    Appendix IV - Office of the Inspector General, Audit Division,
                    Analysis and Summary of Actions Necessary to
                    Close Report ....................................................... 56
              PAYMENTS TO VENDORS BY
          UNITED STATES ATTORNEYS’ OFFICES

                           INTRODUCTION

Background

       United States Attorneys (USAs) serve as the nation’s principal
litigators under the direction of the Attorney General. They are stationed
throughout the United States, Puerto Rico, the Virgin Islands, and the
Northern Mariana Islands. Each is appointed by and serves at the discretion
of the President of the United States. There are 94 judicial districts with one
USA assigned to each, with the exception of Guam and the Northern Mariana
Islands. USAs are the chief law enforcement officers of the United States
within their jurisdictions and head the United States Attorneys’ Offices
(USAOs).

      The USAOs have three statutory responsibilities under Title 28,
Section 507, of the U.S. Code. Their responsibilities include:

      •     the prosecution of criminal cases brought forth by the federal
            government;

      •     the prosecution and defense of civil cases in which the United
            States is a party; and

      •     the collection of debts owed the federal government that are
            administratively uncollectible.

      When responding to these responsibilities, the USAOs procure a
variety of goods and services. Once goods and services are procured, the
USAOs make payments to vendors through the Justice Management Division
(JMD) for required items using different payment methods. The four
payment methods we reviewed were third-party drafts, government
purchase cards, electronic fund transfers, and Treasury checks.


Audit Objective

     Our audit objective was to determine whether the USAOs’ controls and
procedures over the purchase and payment for goods and services using
third-party drafts, government purchase cards, electronic fund transfers, or
Treasury checks were adequate to ensure that vendor payments were made
according to the policies prescribed by EOUSA and federal regulations.

       To accomplish our objective, we sampled and analyzed
1,517 payments for purchases, sampled and physically located purchased
property, and reviewed delegations of authority and separation of duties
relating to purchases at EOUSA and six district offices.


Efforts by OMB

      Procurements by government agencies are in the billions of dollars
each year and are regularly in the news because of reported fraud or abuse.
As a result, the Office of Management and Budget (OMB) and the Office of
the Inspector General (OIG) have conducted investigations and audits to
help reduce procurement abuses.

       On October 17, 2002, six months after the OMB requested agencies to
combat increasing charge card fraud, the Director of the OMB called for
federal agencies to provide quarterly reports detailing their efforts to combat
fraud and abuse in purchase card and travel card programs. The Director
also requested agencies to take disciplinary actions and make civil and
criminal referrals of employees who violate the public trust. Further, OMB’s
Interagency Task Force identified several best practices that agencies have
found useful in combating the misuse of government-issued cards. As part
of its efforts, the Task Force also reviewed a general plan from the
Department of Justice (DOJ) on their purchase and travel card program and
determined that the DOJ’s plan was adequate.


EOUSA’s Evaluations and Review Staff’s Reviews

      In conjunction with EOUSA’s oversight of USAOs, EOUSA’s Evaluation
and Review Staff (EARS) conducts reviews of each USAO every three years.
The 1-week reviews cover both litigation and administrative activities. The
administrative review covers financial management, third-party payments,
and acquisition management. The EARS teams are made up of as many as
40 staff from EOUSA and administrative and litigation staff from other
USAOs to perform their reviews. If EARS findings are deemed significant,
they are reported as “red flags” and are elevated directly to EOUSA’s Chief
Operating Officer for immediate attention and corrective action. All issued
reports require a written response from the applicable USAO within 30 days.

                                     2
       The scope of the EARS reviews includes sampling transactions from
the current and prior year. The EARS reviewers look at separation of duties
and security over third-party drafts. They also conduct an inventory of
unused drafts and perform a voucher file review. In the area of acquisitions,
they review the overall management of acquisitions by sampling
transactions, reviewing reference materials, and analyzing support from
EOUSA and JMD. For delegations of authority, EARS reviews the district
office’s acquisition procedures, workload, duties, training, ratifications of
unauthorized commitments, blanket purchase agreements, and
purchase/delivery order files. In the purchase card area, they look at the
management of the program and review purchase card files. They also
examine the certified invoice procedures used for litigation services and
expenses.

      Based on our examination, we believe that EARS reviews are generally
adequate to identify potential problems in the vendor payment area.
However, we have one recommendation in Finding 1 associated with adding
steps to their reviews to detect the same types of deficiencies as identified
by our audit.


OIG Investigations of Procurement and Payment Frauds

      The OIG conducted two recent investigations of procurement and
payment frauds committed within the USAOs. In our opinion, EOUSA could
have detected the fraud earlier had responsible USAO employees complied
with established internal controls and EOUSA’s procedures. The OIG
investigations resulted in criminal charges against two employees and the
resignation of another in lieu of his termination.

      Central District of California. In the Central District of California,
a procurement clerk defrauded the government of over $435,000 over a
31-month period (July 1997 through February 2000). The clerk used her
government purchase card to acquire goods and services for personal use.
She also used two former employees’ purchase cards in the scheme.
Fraudulently purchased goods included trips to Israel, Australia, and Alaska;
department store gift certificates and general merchandise; cellular phone
service; car insurance; automobile maintenance; clothing; over
35 computers; 35 printers; 10 scanners; and 50 inkjet cartridges. Due to
the volume of improper purchases, a 19-foot rental truck was used to
transport some of the items that were seized during the execution of the
search warrant. Explanations the procurement clerk used for some of these


                                    3
personal purchases were for items needed for the government’s Weed and
Seed Program.2

      The fraudulent procurement scheme was first noticed when BankOne,
the purchase card issuer, contacted the Central District of California’s Chief
of Support Services in December 1999 about questionable purchases made
in Las Vegas using an ex-employee’s purchase card.3 At the time, the Chief
was an accountable officer and approving official.4 The Chief asked the
procurement clerk about the purchases, but she was able to explain the
charges to the Chief’s satisfaction. The fraud continued until a routine audit
by JMD raised concerns, prompting an investigation by the OIG. During the
investigation, the Chief was questioned about the excessive purchases. The
Chief indicated as the approving official that he would only do a cursory
review “to ensure that there was not an absolutely ridiculous expense.”
Concurrently, but independently of the JMD review, the EARS conducted a
review at the Central District of California and found that 1) purchase card
statements were sometimes not signed by either the cardholder or
approving official, 2) purchase cards were shared with other employees, and
3) purchase card files lack required documentation.

       In summary, the Chief of Support Services was not following the
existing government purchase card procedures. According to the OIG
investigative report, the clerk was able to elude detection because of, in the
Chief’s words, his “complacency, stupidity, and ineptness.” The Chief also
said the procurement clerk “would produce paperwork supporting the
purchase, which he [the Chief] realized at the time ... was fabricated.” Had
the chief been doing his job according to EOUSA’s Government Purchase
Card Program for Simplified Acquisition, as an approving official, he would
have 1) signed and dated the monthly statements after reviewing supporting
documentation, where he should have noticed that monthly account cycle
reports included charges for former employees; 2) cancelled the purchase
cards of former employees; and 3) challenged documentation for purchases


       2
         Weed and Seed is a community-based multi-agency program to control violent
crime, drug trafficking, and drug-related crime in targeted high-crime neighborhoods.
       3
           BankOne is the DOJ’s purchase card contractor.
       4
          The term Accountable Officer is defined by Title 31 of the U.S. Code and
Comptroller General decisions. Accountable officers are those employees who are
responsible for the obligation, custody, and payment of government funds. Accountable
officers may be held personally liable and/or subject to disciplinary action for the loss or
improper payment of government funds.

                                             4
not meeting the needs of the USAO.5 The clerk was convicted of defrauding
the government and the Chief resigned in lieu of termination.

       District of Oregon. In the District of Oregon, the Deputy
Administrative Officer defrauded the government for $39,105 during an
11-month period (January 2000 through November 2000). As reported in
the OIG investigation report, the Deputy Administrative Officer was
responsible for most of the budgeted accounts, reviewing official travel
charges, and receiving monthly listings of travelers’ delinquent accounts.
She was also responsible for reviewing a monthly printout of the office’s
financial obligations. The EARS team completed a review the year before
the fraud occurred. The Deputy Administrative Officer responded to the OIG
Investigator that she “knew that any money stolen during the first year after
their [EARS] audit would more than likely not be identified [detected].”

      This creative fraudulent scheme included misusing her
government-issued travel card, developing her own form as the basis for
requesting third-party drafts to be issued, using the password of a former
administrative technician to issue checks to herself, forging the signature of
the third-party draft disbursing officer, authorizing third-party drafts to be
issued without supporting documentation, creating a fictitious account under
the Expert Witness Program, and entering checks into the FMIS accounting
system that caused drafts to be written to for her personal use.6

       Using the Deputy Administrative Officer’s position in the administrative
unit, she was able to instruct a subordinate disbursing officer to sign
third-party drafts without presenting supporting documentation, such as an
original invoice. For documentation, the subordinate disbursing officer was
asked to compare the written drafts to the Deputy Administrative Officer’s
self-made form rather than to the invoices and supporting documents. The
District of Oregon received notices of misuse of the Deputy Administrative
Officer’s government-issued travel card and did not report them to her
supervisor.

      This undetected fraud primarily occurred because a disbursing officer
in the District of Oregon was not following the requirement to review
supporting documentation prior to signing third-party drafts. In some
instances, the Deputy Administrative Officer presented her self-made form

       5
            The account cycle report is a monthly report transmitted by BankOne to approving
officials listing all purchase card purchases made by assigned cardholders.
       6
           FMIS is a previous version of JMD’s Financial Management Accounting System.

                                           5
as documentation instead of original invoices. According to the OIG
investigative report, one disbursing officer just signed the drafts left on the
table without reviewing the supporting documentation. Disbursing officers
should be able to stop proposed payments because of the lack of sufficient
supporting documents. The fraud also occurred because missing copies of
the fraudulent third-party drafts did not cause suspicion and the use of
non-standard, self-made forms should have caused the disbursing officer to
question those transactions and deny signature on the applicable third-party
drafts. In this fraud the regulations were not followed, and the Deputy
Administrative Officer abused her authority, resulting in her prosecution.




                                     6
             FINDINGS AND RECOMMENDATIONS

              1.     ACQUISITION AND PAYMENT
                     PROCEDURES

              Overall, the procurement and payment directives
              issued by EOUSA and other authorities set forth a
              system, that if complied with, is sufficient to prevent
              or detect fraud, loss, or error in payments to
              vendors. We found an overall low error rate in our
              tests of the procurement and payment system,
              indicating that the USAOs generally complied with
              the directives. Nonetheless, we did find instances of
              noncompliance that would occur less often by
              implementing our recommendations.

       During the audit, we reviewed 1,517 purchase transactions and
examined 10,111 documents at 6 of the USAOs and EOUSA. Our audit
consisted of detailed reviews of procurement documentation and
approximately 150 interviews with personnel involved in the acquisition and
payment process. Throughout this audit, we performed extensive audit
testing including reviewing transactions for split purchases, duplicate
payments, and fraudulent purchases.7 (See Appendix I for more details.)
Although some of our findings of noncompliance with the procurement and
payment directives may appear minor, they nonetheless suggest that there
are additional steps that EOUSA and the USAOs should take to minimize the
likelihood of fraud occurring.

      As required by OMB Circular A-123, Management Accountability and
Control (Revised), it is management’s responsibility to establish internal
controls to assure protection for and timely detection of unauthorized
acquisition, use, or disposition of an agency’s assets. The controls in place
should be sufficient to ensure proper separation of duties. The Comptroller
General’s Standards for Internal Control in the Federal Government also
contains standards for establishing and maintaining systems of internal
control for federal agencies. Separation of duties, proper execution and


       7
           A split purchase is dividing a procurement into multiple parts and paying each part
at a different time to avoid exceeding the purchaser’s delegated procurement limit.

                                            7
documentation of transactions, effective internal controls, and physical
control over assets are all part of an adequate system of controls.


Separation of Duties

       Separation of duties is one of the most important procedures available
in the internal control process to reduce the risk of fraud, loss, or undetected
error in any financial system. The lack of separation of duties can lead to
the types of fraud that were present in the District of Oregon and the Central
District of California.

      At 6 of the 7 sites visited, required separation of duties did not occur
in 42 of 1,517 transactions tested throughout the acquisition and payment
process. The 42 transactions totaled $47,640. In these transactions, one
person performed two separate functions as shown in the chart below that
should have been performed by different persons.

      The following table shows the results of our tests of separation of
duties at EOUSA and the six USAOs we reviewed.

                         Lack of Separation of Duties on Procurements

                                                                                            Tennessee
                                                  District of




                                                                District of




                                                                              District of



                                                                                            District of



                                                                                                          District of




                                                                                                                        District of
                                   Attorneys
                                   Executive




                                                                              New York
                                   Office for




                                                                                                                        Southern
                                                                              Eastern



                                                                                            Eastern
                                                                Oregon
                                                  Mexico




                                                                                                                        Florida
                                   United
                                   States




                                                                                                          Utah
                                                  New




                                                                                                                                      Totals
 Approving officer was also the
 disbursing officer or the
 subcertifier                                                                         3                                         4          7
 Purchased and approved by the
 same person                                  2                           3                                         7                     12
 Approving officer was also the
 budget officer                               1         17                                                                      2         20
 Budget officer was also the
 purchase card user                                                                                                 3                      3
 Totals                                       3         17                3           3             0            10             6         42
Source: Data based on OIG analysis of purchase transactions.




Lack of Designation of Accountability

      The Accountable Officer Signature Form, Form OBD-234, is described
in the Financial Management Policies and Procedures Bulletin, No. 00-01, as
“… a critical OBD financial management internal control documenting the
                                    8
individuals empowered to approve or effect financial transactions for each
component.”8 Further, Title 31 of the U.S. Code, Comptroller General
Decisions, DOJ Order 2110.39A, and the EOUSA Financial Manual state that
accountable officers are those government employees who are responsible
for the obligation, custody, and payment of government funds. Accountable
officers, by signing the form, acknowledge that they may be held personally
liable and/or subject to disciplinary action for the loss or improper payment
of funds under their authority. Each accountable officer is specifically
designated as such on Form OBD-234 by their respective U.S. Attorney.

        The current Form OBD-234 (revised in September 1999) includes
designations for approving officers, subcertifiers of invoices or vouchers,
third-party payment disbursing officers, and those with specific delegated
procurement authority. However, the instructions for the Form OBD-234 do
not explain that all employees with a delegated procurement authority, e.g.,
purchase cardholders and Assistant U.S. Attorneys authorizing the purchase
of litigative services, should sign the form. Further, the authority to certify
the availability and obligation of funds was not included as one of the
designations on the form. Certification and obligation of available funds is a
budget officer role and is necessary prior to the acquisition of goods and
services. The signing of an obligating document, specifically the certification
that funds are available to pay for goods and services, is an accountable
officer function by definition. We believe that EOUSA should discuss with
JMD the need to add budget officers or staff certifying the availability and
obligation of funds to the current Form OBD-234. At EOUSA, we found at
least four older versions of the Form OBD-234 in use in the sampled
transactions. This occurred because instructions issuing the Form OBD-234
did not require updating old forms unless there were changes to specific
delegations or relocations of applicable staff.

      While reviewing payments for purchases, we found various examples
of accountable officers without a signed Form OBD-234. At EOUSA,
14 accountable officers were approving transactions that did not have a
signed Form OBD-234 authorizing that authority. Another 128 transactions
were found at three sites where the signature certifying the availability and
obligation of funds was that of budget personnel who had not been
designated on a Form OBD-234. EOUSA and the District of Utah accounted
for 125 of the 128 transactions; the Southern District of Florida accounted
for the remaining three transactions. At the District of Utah, two disbursing



      8
          OBD stands for Offices, Boards, and Divisions in the DOJ.

                                            9
officers had not been designated as third-party payment disbursing officers
on the Form OBD-234.9 The two disbursing officers had signed
116 third-party drafts totaling $41,548. The absence of a signed
Form OBD-234 increases the risk of purchasing unnecessary and unallowable
goods or services. We believe that the EARS reviewers should increase
their scrutiny of the Form OBD-234 in their triennial audits.


Approval of Purchases

      According to the Government Purchase Card Program for Simplified
Acquisition, paragraph 8.D, and the Third Party Payment Policies and
Procedures Handbook, Sections 3.O and 6.E, all purchases must be approved
in advance by an approving officer. For each purchase, the approving officer
must sign a procurement authorization form, in effect certifying that the
requested purchase was legal and necessary.

      Authority to Procure. At EOUSA, we found 5 purchases out of
222 totaling $6,830 where approval was given by a person who had no
authority to approve the purchases.

      Reasonable Procurements. One audit test was to review all
1,517 sampled transactions for purchases that appeared unreasonable or for
purposes other than the USAOs’ official use. After initial tests and
discussions with the applicable administrative staff, we found that the
number of procurements appearing unreasonable was very small, and we
considered this a good record for the USAOs considering the large number of
transactions sampled.

      However, we found 1 procurement out of 222 at EOUSA where the
requisition described the purchase of services as “$20,000 for overtime,
miscellaneous and etc.” This ambiguous wording on the purchase
documents could allow non-specified goods or services to be purchased. We
believe that approving officers and budget officers should be on the alert for
procurements with ambiguous wording and should not authorize those
transactions without obtaining further detailed explanations.




       9
          Subsequent to our fieldwork, EOUSA provided documents demonstrating that the
required certifications had been updated and were now maintained at the District of Utah as
required.

                                          10
Obligation of Funds

       We found that the documentation for 32 of 1,517 transactions totaling
$145,681 did not include the signature of a budget officer or budget staff
certifying the availability of funding. Seventeen of the 32 transactions were
found at EOUSA; the remainder was at the District of Oregon, the District of
Utah, the Eastern District of New York, and the Southern District of Florida.
For those transactions, the purchaser should have refused to proceed with
acquisition because there was no signature certifying the availability of
funds.


Acquisition Process

      We found a variety of deficiencies in the acquisition process, which we
describe below.

      Missing Procurement Forms and Supporting Documents. The
procurement authorization form is used to document the acquisition process.
It requires the signatures of both an approving officer and a budget officer.
Of the 1,517 transactions tested, we identified 23 procurements totaling
$2,511 that did not have a procurement form to support each purchase —
14 forms were missing in the District of New Mexico, 4 in the District of
Oregon, 1 at EOUSA, 2 at the Eastern District of New York, and 2 at the
Eastern District of Tennessee. The absence of this authorization could lead
to unauthorized procurements or the concealment of fraud.

      We also identified two additional transactions at the Eastern District of
New York, one at the District of Utah, and four in the District of Oregon that
had no supporting documentation at all. These seven transactions totaled
$2,741. The administrative staff at those offices could not provide any
documents supporting these seven purchases. We expected to find, at a
minimum, a procurement form and a vendor invoice or a purchase card slip.
Missing procurement forms and supporting documents were evident in the
two previous OIG investigations of fraud in the District of Oregon and the
Central District of California.

       Procurement Without Written Approval. Twenty-two out of
1,517 procurements, totaling $9,619, did not have the signature of an
approving officer on the procurement documents. The procurement forms
without approval were found at EOUSA, the District of New Mexico, the
District of Oregon, the Southern District of Florida, and the Eastern District
of New York. The approving officer’s signature certifies that the goods or
services to be purchased were legal and necessary. EARS reviewers
                                    11
considered it a “red flag” when approval by the approving officer is not found
on the procurement documents. Further, the procurement staff responsible
for the purchases could be held personally liable if the items procured did
not have management’s approval. These 22 purchase requests should have
been cancelled. Procurements without approval were also present in the two
OIG fraud investigations in the District of Oregon and the Central District of
California. We believe that the EARS reviewers should intensify their review
of this area.

       Procured Prior to Approval. We found 95 purchases ($43,788) in
the sample of 1,517 transactions at all 7 offices in which the procurement
staff had bypassed the requirement for approval of the transaction prior to
the purchase. In the District of Utah, for example, the procurement staff
was ordering supplies, attaching copies of the order confirmations to the
procurement documents, and then obtaining the approval of the approving
officer. The error rate at the Eastern District of New York was 6 percent,
12 percent at the Eastern District of Tennessee, and 16 percent at the
District of Utah.

          The following table shows the distribution of this deficiency by office.

                                    Procurements Prior to Approval


                                                                                             Tennessee
                                                   District of




                                                                 District of




                                                                               District of



                                                                                             District of


                                                                                                           District of




                                                                                                                         District of
                                      Attorneys
                                      Executive




                                                                               New York
                                      Office for




                                                                                                                         Southern
                                                                               Eastern



                                                                                             Eastern
                                                                 Oregon
                                                   Mexico




                                                                                                                         Florida
                                      United
                                      States




                                                                                                           Utah
                                                   New




                                                                                                                                       Totals
 Purchase made prior to approval               7           2              9          13            24            28              2        85
 Purchase made prior to approval;
 approving officer did not date
 procurement form                                                                                    1              6            3        10
 Totals                                        7           2              9          13            25            34              5        95
Source: Data based on OIG analysis of purchase transactions.


      Purchasing goods and services prior to approval increases the risk that
fraud could occur or that purchased items may not meet the USAO’s needs.
This type of activity is also evidence that internal controls are weak and the
procurement staff is not carefully reviewing purchase documents.

       Required Sources Were Not Considered First. At EOUSA, the
District of Oregon, the District of Utah, the Eastern District of New York, and
the Eastern District of Tennessee, we found 41 purchases, totaling $21,719,
where the reasons for not using required sources when purchasing supplies
and services was not adequately documented. The documentation did not
                                                    12
indicate that required sources were first considered before the procurement
was made from commercial sources. (See Finding 2 for more information on
the design of the procurement form documenting required sources.) Federal
Acquisition Regulation, Subpart 8.001, lists the required sources to be first
considered when purchasing supplies and services. The regulations also
stipulate that required sources be considered in a prescribed sequence. In
addition, the Government Purchase Card Program for Simplified Acquisition,
paragraph 8.E., states that, “Required sources must be considered
regardless of the dollar value (whether a $2 purchase or a $25,000
purchase).”

      EOUSA and the Eastern District of Tennessee used a form for purchase
card procurements that minimized the opportunity for the procurement staff
to record a correct answer considering required sources. Both forms
required the purchaser to explain why they did not use a required source in
those situations when a required source was in fact used. In order to
comply with Federal Acquisition Regulation, Subpart 8.001, the form should
document why a required source was not used.

      The sample at EOUSA contained 74 “credit card purchase request”
purchases. Seventy-two of their 74 purchase request forms had no
response recorded to the question concerning the use of required sources.
Two forms were marked that required sources were not used. Further, we
found no justification on any of the 74 forms indicating the reason for not
using a required source. Of the 72 forms not marked yes or no, 29 were
marked “small business,” 2 were marked “small and disadvantaged,” 2 were
marked “woman owned,” 21 were marked “other,” and 18 purchases had no
boxes checked on the form. In our opinion, simple changes in the
procurement forms would help document the intent of Subpart 8.001 of the
Federal Acquisition Regulations when a decision was made not to use a
required source.

       Price Reasonableness. Our testing identified two procurements
($7,081) where a determination on price reasonableness was required but
not performed. Neither purchase was properly documented. The
Federal Acquisition Regulations indicate that when purchases above a
$2,500 threshold are made, a price reasonableness determination must be
made when not using a required source. The intent of the regulation is to
ensure that the government gets good value in terms of a reasonable price
while considering the time necessary to receive the product or service, the
reliability of the product, and the quality of service. Purchasers should get
the best buy available that meets the government’s minimum requirements
(GSA SmartPay Purchase Card Manual, Part III.(3)). The first procurement
occurred at EOUSA and contained the words “sole source” in the
                                    13
procurement documentation without any other explanation. In our opinion,
the price reasonableness determination should have been made, or the
purchaser should have documented that the requirement was not applicable.

      The second procurement occurred at the Eastern District of Tennessee.
The purchase was not from a required source, and the dollar amount of the
purchase was greater than $2,500. We examined the district office’s
documentation to see if any vendor names and amounts were listed to
document that a price comparison was made. However, we found no
specific documentation supporting that the purchaser had made a price
reasonableness determination for the procurement.

      Prohibited and Recurring Purchases. We found 18 transactions
($11,872) in the sample of 427 purchase card transactions for items
purchased that were prohibited according to EOUSA’s purchase card
guidelines. The guidelines stipulate that printing and telecommunications
expenses are not allowed to be paid using a government purchase card.
EOUSA’s Assistant Director of Telecommunications responded that the four
telecommunications related purchases at EOUSA were made with the
purchase card because his procurement staff can use the card as a payment
mechanism for this type of transaction. Our review of the documentation
concluded that the telecommunication purchases were legitimate, justified
for the USAOs’ needs, and could have been purchased using a different form
of payment other than the purchase card. The details of the test results are
shown in the following table.

           Prohibited and Recurring Items Purchased Using A Purchase Card
                                                                                           Tennessee
                                                 District of




                                                               District of




                                                                             District of



                                                                                           District of



                                                                                                         District of




                                                                                                                       District of
                                   Attorneys
                                   Executive




                                                                             New York
                                   Office for




                                                                                                                       Southern
                                                                             Eastern



                                                                                           Eastern
                                                               Oregon
                                                 Mexico




                                                                                                                       Florida
                                   United
                                   States




                                                                                                         Utah
                                                 New




                                                                                                                                     Totals
 Telecommunications purchased
 on purchase card                                        1                                         4               3                      8
 Telecom goods/services by
 warranted C.O. assigned to TTD              4                                                                                            4
 Printing on a purchase card                                                                                       2                      2
 Reoccurring monthly charges on
 a purchase card                             4                                                                                            4
 Totals                                      8           1               0           0             4               5           0         18
Source: Data based on OIG analysis of purchase transactions.


      Other Documentation Issues. Blanket funding allows agencies to
obligate funds for repeated small purchases. When blanket funding is issued

                                                    14
by the budget officer, the budget officer’s signature is not required for each
related purchase. However, each repeated purchase using the
blanket-funding procedures is required to be approved in advance using a
procurement form. In testing purchases at the District of New Mexico, we
found the blanket-funding form used included the date when the
authorization would expire and the dollar limit for a category of purchases,
such as consumable supplies. This same blanket-funding document was
then photocopied and used again for future purchases, but without the
purchaser obtaining a new approving officer’s signature. The purchaser or
the procurement staff should have kept a copy of the original
blanket-funding document and used the copy to complete a new
procurement form for each future purchase.

       Also in the District of New Mexico, one transaction where a blanket
obligation of $1,000 for consumable supplies was established using a form
titled “Request for Consumable Supplies.” The blanket funding was intended
to be in effect for the first quarter of FY 2001. However, the document was
altered without being initialed by the approving officer. The change altered
the effective period from the “first quarter” to “all year.” The actual
purchase took place on September 28, 2001, almost a full year after the
date the obligation was created. The payment occurred in FY 2002 using a
government purchase card. For this procurement to be proper, the
procurement staff should have obtained the signature or initials of the
approving officer acknowledging the changes made on the procurement
form.

      In the sample at EOUSA, we found 6 procurements out of a sample of
222, totaling $3,569, not documented with a separate procurement
authorization form. We observed the payment of invoices for purchases with
no more support than the budget officer’s initials on the invoice. In addition,
there was no separate documentation of an approving officer’s authorization.
For these procurements, a blanket-funding document was created for minor
repairs and alterations to occupied leased space. In addition, the invoices
reviewed had been signed and dated; however, the approval, certification of
available funds, and receiving of the individual requests for repairs or
modifications were not obvious. A standard procurement form, such as the
one recommended in Finding 2, should be used as support documentation
for the acquisition of minor repairs and alterations to leased space even if
there was a blanket obligation document for that category of expense.

      At the District of Utah, we identified three instances where items were
added to previously approved procurement forms. The added items were
not approved and available funding was not certified. The procurement staff
explained that the reason for adding items to an approved order was to
                                     15
restock office supplies. On one of the procurement forms, for example, in a
different handwriting, “miscellaneous supplies for office use” was added to
the procurement form without providing the description, quantity, or total
price. The total amount of the added items was $491.98. This purchase did
not adhere to procurement regulations requiring purchasing goods with prior
written approval.

       Also in the District of Utah, we observed 13 of the 208 purchases
where the procurement authorization form was not completed properly. The
quantity, description, unit price, and total amount were not completed for
any of the items purchased. These 13 purchases totaled $15,039. For these
purchases, it appeared that the approving officer and budget officer had
signed the purchase request without knowledge of the specific details of the
goods and services to be purchased. Each of the forms had some form of a
description such as “multiple supplies for all four floors” or “miscellaneous
supplies needed for office use.” To comply with established internal
controls, approving officers and budget officers should not approve requests
that have incomplete data for the description, quantity, and dollar amount of
the items to be purchased. This situation creates a higher risk that fraud
could occur, especially if no subsequent review is performed. A purchaser
could use these approved purchase requests by adding personal items or
increasing the quantity of items ordered and converting them for personal
use.


Receiving

       Each of the sampled purchases in this audit was reviewed to determine
if the documentation was marked as received, signed, and dated by
someone in the office. Some offices used a rubber stamp to indicate the
physical receipt of purchases. One office, the Southern District of Florida,
designed its procurement form to contain a specific section for evidence of
receipt of goods and services.10

       Of the 1,517 total sampled purchases, we found 90 receiving errors,
an overall error rate of 6 percent. We believe that a standard
comprehensive procurement form with a signature line for documenting the
receipt of goods and services, such as the one used in the Southern District
of Florida, should be developed and used by USAOs.

      10
         In our judgment, the procurement form used by the Southern District of Florida is
in many respects superior to the forms used by other USAOs. The form is discussed in
more detail in Finding 2 and is provided in Appendix II.

                                          16
Payment for Purchases

       The scope of our audit involved sampling payments to vendors from
four data sources containing purchase card transactions, electronic fund
transfers, third-party drafts, and Treasury checks. The four data sources
contained a total of $155,048,146 in purchases for FY 2002. The seven
offices in our sample paid $31,726,084 for purchases of goods and services.
From that amount, we sampled 1,517 payments totaling $2,755,123.

      Differences Between Amounts Owed and Amounts Paid. At
EOUSA, three Treasury checks were issued by JMD for EOUSA for dollar
amounts in excess of the amounts EOUSA requested. In response to our
inquiry in June 2003, EOUSA staff reviewed the transactions, determined the
cause, and obtained a prompt refund of $6,332.51.

      In five other transactions in the sample, a difference was observed
between the amount paid and the amount billed by the vendor. The dollar
amounts of the errors found were small, but they show the need for careful
review of the documents before making the payments.

      Delegated Payment Limits Exceeded. When reviewing electronic
fund transfers at EOUSA, we discovered one payment for $124,176 that
exceeded the subcertifier’s $50,000 delegated payment limit.11 For
transactions where the amounts are in excess of the subcertifier’s delegated
payment limit, the transaction should have been rejected by the FMIS2+
accounting system and subsequently paid by JMD. Our review of the file for
this purchase confirmed that the transaction was for a legitimate
government use and had been properly approved by an approving officer.
At the exit conference on September 11, 2003, the Lead Budget Analyst,
Resource Management and Planning Staff, EOUSA, confirmed that a
subcertifier’s delegated payment had been exceeded and that the FMIS2+
system had been fixed and tested to reject the processing of payments for
amounts exceeding delegated limits.

      We performed another audit test to determine if the dollar limits of the
contracting officers’ authority, which was stated on their Certificates of
Appointment (SF-1402), had been exceeded on the sampled procurements.
We found no procurements where the contracting officer’s delegated
authority was exceeded. However, we found unreasonable and

       11
           A subcertifier is an accountable officer designated by a U.S. Attorney to make
electronic fund transfers to vendors from the Financial Management Information System
(FMIS2+) accounting system.

                                           17
unquantifiable language on those certificates. The language on each of the
Certificates of Appointment stated that the dollar limits of their authority
were “$2,000 for acquiring construction/alteration or renovation services,
open market purchases up to $25,000, up to $100,000 for litigative
consultants and expert witnesses only, and up to $500,000 for purchases on
Federal Supply Schedules and DOJ contracts.” In addition, the certificates
stated, “There is no dollar limitation on purchases made from UNICOR,
NIB/NISH OR FEDSTRIP.”12

       To inquire further about the unquantifiable language on the
certificates, we spoke with an Assistant Director at EOUSA and asked what
the terminology of “no dollar limitation” meant. The Assistant Director
replied that JMD had a database containing all contracting officers in the
DOJ’s Offices, Boards, and Divisions and that the dollar limitations in that
database for “no dollar limitation” was recorded as $9,999,999,999 for each
purchase made from UNICOR, NIB/NISH, or FEDSTRIP. The large figure was
used because the database would not accept alphabetical characters (“no
dollar limitation”) in a numeric field.

       From a listing of contracting officers provided by JMD, we identified
276 USAOs’ contracting officers in the database, each with a $9,999,999,999
dollar limit on procurements. As stated in Federal Acquisition Regulation,
Chapter 1, Subpart 1.602-1, “Contracting officers may bind the Government
only to the extent of the authority delegated to them.” Because of this
excessive procurement authority, we believe that the wording on the
Certificates of Appointment needs to be restated, establishing a reasonable
dollar limitation for purchases from UNICOR, NIB/NISH, and FEDSTRIP.

      Missing Invoices. Of the purchase card transactions sampled, we
found 50 purchases ($36,664) out of a total of 427, or 12 percent, that were
not supported by an invoice. One contracting officer explained that if orders
with a government agency are placed over the Internet, the vendor would
not transmit an invoice. Even in those cases, the purchaser should try to
obtain an invoice. When no invoice supported the purchase, there was no
documentation of what was actually ordered and received and the risk of
fraud or misuse of government funds increases. This issue is a “red flag”
when discovered by the EARS reviewers.


       12
          UNICOR is the name of the Federal Prison Industries within the Bureau of Prisons.
NIB is the National Industries of the Blind, and NISH stands for the National Industries for
the Severely Handicapped. FEDSTRIP stands for federal standard requisitioning and issuing
procedures used at the General Services Administration with federal supply schedules.

                                          18
     The following table shows the distribution of offices sampled where
purchases were made without a supporting invoice.

                                Procurements Without an Invoice




                                                                                                      Tennessee
                                                     District of




                                                                     District of




                                                                                       District of



                                                                                                      District of



                                                                                                                     District of




                                                                                                                                    District of
                                   Attorneys
                                   Executive




                                                                                       New York
                                   Office for




                                                                                                                                    Southern
                                                                                       Eastern



                                                                                                      Eastern
                                                                     Oregon
                                                     Mexico




                                                                                                                                    Florida
                                   United
                                   States




                                                                                                                     Utah
                                                     New
                                                                                                                                                  Total

 No invoice                                 24               2                 2               9              8                3            2         50
Source: Data based on OIG analysis of purchase transactions.


       Taxes Paid on Goods and Services. At 4 of the 7 sites sampled, we
identified 20 purchases where the vendor charged some form of a state or
local tax. As stipulated by the Federal Acquisition Regulations, the
government should not pay state and local taxes. While the number of
transactions with taxes paid was small in comparison to the overall sample,
purchasers are responsible for ensuring that the tax-exempt status is
honored by the vendor.

          The following table describes the results of our tests for taxes paid.

                                      Taxes Paid on Purchases
                                                                                                       Tennessee
                                                       District of




                                                                       District of




                                                                                        District of



                                                                                                       District of


                                                                                                                      District of




                                                                                                                                    District of
                                     Attorneys
                                     Executive




                                                                                        New York
                                     Office for




                                                                                                                                    Southern
                                                                                        Eastern



                                                                                                       Eastern
                                                                       Oregon
                                                       Mexico




                                                                                                                                    Florida
                                     United
                                     States




                                                                                                                      Utah
                                                       New




                                                                                                                                                  Totals
 Tax included (all litigative
 services)                                                       6                                                                                    6
 Sales tax included                              2               2                                                             1            5        10
 Gross receipts tax included                                     4                                                                                    4
 Totals                                          2           12                    0            0              0               1            5        20
Source: Data based on OIG analysis of purchase transactions.


       Incorrect Draft Number or Draft Date On Supporting
Documents. According to the Third Party Payment Policies and Procedures
Handbook, Section 6.e(3)(b), the payment clerk should record the draft
number and draft date on the invoice or supporting documentation and mark
the documentation “PAID” when purchases are paid by a third-party draft.
This procedure eliminates duplicate payments and provides an audit trail to
the third-party draft when questions arise about payments. This audit
identified six purchases at the District of Utah, the District of Oregon, the

                                                        19
Eastern District of New York, and the Eastern District of Tennessee where
the draft number was not included on the supporting documents. We also
found 11 transactions at three sites where the date of the draft or the
correct date of the draft was not shown on the supporting documents.
These 17 errors occurred in 14 transactions. This is a low error rate
(1.9 percent) and indicates a good record for the USAOs considering the
730 drafts ($336,236) occurring in the sample.

      Voided Drafts. In addition to the sample of 730 paid third-party
drafts, our testing included reviewing 127 voided drafts to determine if the
drafts were voided in compliance with the Third Party Payment Policies and
Procedures Handbook. Voided third-party drafts were written only at the
USAOs. No drafts were written by EOUSA, as those were written by JMD.
The audit tests revealed a total of 109 deficiencies at the District of Oregon,
the District of Utah, the District of New Mexico, the Eastern District of
Tennessee, and the Eastern District of New York. On 16 transactions, the
original “PAID” notation was not crossed out on the voucher or procurement
form. Thirty voided drafts did not have the word “VOID” written or stamped
on the signature block area on the face of the draft. We identified
37 instances where the numerical log of voided drafts was not signed and
dated by the disbursing officer, 20 instances where the voided draft
information was not recorded in the numerical log, and 6 instances where
the original voided draft and all copies of the draft were not retained in the
numerical log.

      Review of Monthly Purchase Card Statements. As stated in the
Government Purchase Card Program for Simplified Acquisition,
Section 5.F, “the Purchase Cardholder and the Approving Official must
review, sign, and date these monthly statements.” Therefore, we reviewed
FY 2002 purchase card statements issued monthly to purchase card users.

      Our judgmental sample included at least one purchase cardholder from
each of the seven sites and we reviewed all monthly statements issued to
that cardholder. A total of 113 monthly purchase card statements were
reviewed. If no purchases were made during the statement period, no
statements would be issued by BankOne to the purchase cardholder. Of the
statements reviewed, 95 statements were not dated as reviewed by the
cardholder and 73 were not dated as reviewed by the approving official. The
Government Purchase Card Program for Simplified Acquisition,
Section 0.A.(3), states that the purchase cardholder must verify, sign, and
date the monthly statement and forward it, along with all documentation, to
the approving official within 15 days of the monthly statement date. The
approving official must then verify, sign, and date the monthly statement
and submit it, along with all supporting documentation, to the budget officer
                                     20
for reposting.13 Since most of the statements were not dated by either the
cardholder or approving official, no determination could be made concerning
timely reviews by approving officials and cardholders.

      When questioned about the lack of dates on the monthly statements, a
typical response from five cardholders interviewed at the Southern District of
Florida was that there was no line on the statement to fill in the date.
However, a line was printed on the monthly statement for the cardholder’s
and approving official’s signatures.

       A more significant deficiency was 15 monthly purchase card
statements that were not signed by the approving officials at EOUSA. This
lack of review is not in compliance with the Government Purchase Card
Program for Simplified Acquisition. Without a careful review of purchase
card purchases and knowledge of what was intended to be purchased, the
risk of fraud, loss, and undetected error increases. This is the same issue
that occurred in the recent fraud at the Central District of California.

      Approving officials at each district office and EOUSA receive an account
cycle report from BankOne on a monthly basis for their assigned purchase
cardholders’ activity. The account cycle report contains a listing of purchase
cardholders and all transactions occurring during the previous billing cycle.
According to the Government Purchase Card Program for Simplified
Acquisition, the approving official must review, initial, date, and maintain the
account cycle reports for audit purposes. The account cycle report is an
additional check for approving officials to review purchases made by their
purchase cardholders. Since monthly statements are not sent out when no
purchase activity occurred and since a cardholder may not forward a
monthly statement to the approving official, the account cycle reports may
be the only record of purchases that an approving official sees.

      Our audit testing included reviewing 1 of the 12 monthly account cycle
reports at each site visited. The reports at EOUSA, the Eastern District of
Tennessee, and the District of Utah were not initialed or dated, the report at
Southern District of Florida was not dated, and the report at the District of
New Mexico had a questionable date — dated earlier than the date the office
had stamped that the report was received. The reports at the District of
Oregon and the Eastern District of New York were initialed and dated as
required.

       13
            Reposting is an accounting process where purchase card transactions that were
initially charged to a common account are reposted to a more specific appropriation
account.

                                          21
      Comparison of Invoice to Supporting Documentation. When
looking at each sampled payment, our audit procedures compared the
information in the output from the four data sources to the associated
invoice and supporting documentation. We looked for consistency in the
vendor name and amount paid, determined if alterations were made on
supporting documents, and looked for a “PAID” indication on the documents
to prevent duplicate payments.

      We found several instances where the dollar amounts, quantities, or
other details on the supporting documentation were altered on the
procurement documents. In that situation, auditors could not determine if
the alterations were made before or after the approving officer had signed
the document because there was no signature nor date next to the changes.

          The following table lists details of the discrepancies found.

                                Documentation Supporting Purchases




                                                                                           Tennessee
                                                 District of




                                                               District of




                                                                             District of



                                                                                           District of



                                                                                                         District of




                                                                                                                       District of
                                   Attorneys
                                   Executive




                                                                             New York
                                   Office for




                                                                                                                       Southern
                                                                             Eastern



                                                                                           Eastern
                                                               Oregon
                                                 Mexico




                                                                                                                       Florida
                                   United
                                   States




                                                                                                         Utah
                                                 New




                                                                                                                                     Totals
 Vendor name differences on
 supporting documents, invoice,
 and draft                                                                                                         1                      1
 Invoice or supporting
 documents not marked PAID                               2                                         1                           1          4
 Alteration(s) made to
 procurement documents                       8           4                                         1               1                     14
 Documentation not supporting
 amount paid                                 1                                                                     1           1          3
 Totals                                      9           6               0           0             2               3           2         22
Source: Data based on OIG analysis of purchase transactions.




Accountable Property

     Part of our audit tests for vendor payments involved physically locating
accountable property when the transactions in the samples included
accountable items. Sampling from the reverse direction, we also selected




                                                    22
and located a maximum of 20 items from the ARGIS Property Management
System that were procured in FY 2002.14

     At EOUSA, five accountable property items, including computer and
communications equipment, could not be located because the
documentation did not contain the location of the items.

          The following table documents the results of the property records
tests.

                Property Not Located or Entered into the Property Records




                                                                                          Tennessee
                                                District of




                                                              District of




                                                                            District of



                                                                                          District of



                                                                                                        District of




                                                                                                                      District of
                                  Attorneys
                                  Executive




                                                                            New York
                                  Office for




                                                                                                                      Southern
                                                                            Eastern



                                                                                          Eastern
                                                              Oregon
                                                Mexico




                                                                                                                      Florida
                                  United
                                  States




                                                                                                        Utah
                                                New

                                                                                                                                    Totals
 Property item not accurately
 entered into ARGIS property
 system                                                                                           1                                      1
 Property item not input into
 ARGIS property system                      3                                                     1               2                      6
 Items not physically located               5                                                                                            5
 Totals                                     8           0               0           0             2               2           0         12
Source: Data based on OIG analysis of property purchases.




Conclusion

      Overall, the USAOs’ system of procurement and payment controls and
procedures was generally adequate to reduce the risk of fraud, loss, or
undetected error. Further, the number of instances of noncompliance with
established acquisition and payment procedures at the seven offices tested
was relatively low. Nonetheless, noncompliance with established procedures
and inadequate management oversight can lead to fraudulent activity, as
demonstrated by the two recent fraud cases.

      We believe that EOUSA should review the EARS acquisition
management audit program to ensure that tests are included that will detect
and deter the same types of deficiencies identified in this audit. In addition,
since EARS reviews are conducted on a 3-year cycle, the reviews should


          14
         ARGIS (not an acronym) is the name of the JMD developed property management
system used by the USAOs to track property.

                                                    23
sample procurement activity in all three years to reduce the opportunities for
fraudulent activity in previously non-reviewed years.

      If the USAOs’ administrative personnel follow the prescribed
procedures, maintain separation of duties, and carefully review their
procurement documents, the types and numbers of errors we found should
be reduced. Implementing the following recommendations will help USAOs
strengthen their system of procurement and payment controls and
procedures.


Recommendations

      We recommend that the Director of the Executive Office for United
States Attorneys:

1.    Coordinate with the JMD Finance Director to ensure that subcertifiers
      cannot bypass their delegated payment limits in the FMIS2+
      accounting system.

2.    Coordinate with the JMD Finance Director to determine if the monthly
      BankOne purchase card statements can be modified to add a line for
      the date of review by the cardholder and the approving official.

3.    Coordinate with the JMD Finance Director to redesign and reissue the
      Form OBD-234, canceling previous versions, to designate all
      accountable officers including the budget officer.

4.    Establish reasonable dollar limits for purchases from UNICOR,
      NIB/NISH, and FEDSTRIP and indicate those dollar limits on the
      Contracting Officers’ Certificates of Appointment.

5.    Require that the EARS review of the EOUSAs’ acquisition management
      program include tests to detect the same types of deficiencies as
      identified by this audit.

6.    Require that the EARS reviews include testing of a USAO’s activity for
      all years since its prior review.




                                    24
            2.    LOCALLY DEVELOPED
                  PROCUREMENT FORMS

            The procurement authorization forms used by the
            USAOs to request, approve, and document
            purchases are inconsistently designed, and some
            forms do not contain important elements as required
            by the procurement regulations. As a result,
            acquisition requirements are not being met and are
            not properly documented.

      While reviewing 1,517 procurement transactions at the seven USAOs,
we found that each office used different, locally developed procurement
forms. With the exception of the Southern District of Florida, the
procurement forms reviewed did not contain required elements, such as
signatures, consideration of required sources, and documentation of the
receipt of goods and services.

      When testing transactions, we analyzed whether the various
procurement forms in use documented that required sources were first
considered before the purchase of goods and services. As prescribed by
Federal Acquisition Regulation, Subpart 8.001, required sources must be
used or first considered for all purchases, regardless of the dollar amount
(“whether a $2 purchase or a $25,000 purchase,” as quoted from the
instructions for the Government Purchase Card Program for Simplified
Acquisition, paragraph 8.E.). The sequence must follow the priority given in
Federal Acquisition Regulation, Subpart 8.001. If purchases cannot be made
from the required sources, they can then be made from commercial sources.

      Two of the seven procurement forms reviewed contained a list of the
required sources, but there was no place on the form to indicate that those
sources were actually considered. Forms used at the District of New Mexico
and the District of Utah contained a column of check boxes listing the
required sources in the specified sequence with a box checked intending to
explain that the source was considered. At EOUSA and the Eastern District
of Tennessee, the forms contained the statement: “GSA mandatory source
(Y/N)? If yes, provide additional justification below if using a source other
than GSA.” However, when the purchaser answered the question with a yes,
there was no indication given to document that the purchaser had actually
checked availability with the required sources, and no justification or waiver
was given for why the required sources were not ultimately used. Further,


                                    25
four forms did not specifically state that a justification or a waiver had to be
given or attached if required sources were not used.

      In our opinion, a comprehensive procurement form should contain
several lines for the purchaser to write the required justifications or give
instructions to attach a waiver when required by the regulations. There
should also be a signature line or initial box for the purchaser to document
that they have actually considered required sources before purchasing from
commercial sources.

      Another improvement that should be made to the procurement forms
in use is the documenting of the receipt of goods and services. Two of the
forms did not have a place to record the receipt of goods by signing and
dating. We observed that some of the offices used a variety of rubber
stamps containing statements similar to “I certify that goods and services
were received” with a space for the receiver to record their signature and
the date received. However, in our opinion, an ideal procurement form
should contain a statement that the receiver verified the existence and
quantity of the specific goods and/or services received for each item on the
packing slip.

      In order to meet acquisition requirements, a single comprehensive
procurement form should be designed and used throughout the USAOs, with
space to record required elements. The elements listed below are applicable
to most purchases, regardless of payment method used or the goods or
services purchased:

      ●     Vendor name, address, phone number, and contact person.

      ●     List of required purchase sources in priority order per Federal
            Acquisition Regulation, Subpart 8.001.

      ●     Justification and/or waivers when a required source was not
            used.

      ●     Justification for not using a small business when a commercial
            source was used and the purchase amount was over $2,500.

      ●     Statement that a notice was placed in a public place when a
            commercial source purchase was made and the cost was over
            $10,000.

      ●     Price quotes were obtained from three vendors and a price
            reasonableness determination was made.
                                     26
      ●        Description of goods and services to be purchased, including
               quantity.

      ●        Total dollar amount of goods and services to be purchased.

      ●        Purchase cardholder name.

      ●        Approving officer signature and date.

      ●        Statement signed by the budget officer that “funds are, or are
               not, available” or the statement “I certify that funds are
               available.”

      ●        Budget officer signature and date.

      ●        Receipt of goods signature and date and verification of counts of
               items.


Southern District of Florida’s Procurement Form

       From our review of the various procurement forms in use at our seven
test sites, the Southern District of Florida’s procurement form was the best
because it contained virtually all of the required elements.15 The Southern
District of Florida uses one form, entitled “Litigation and/or Procurement
Request,” for all purchases and attaches another one-page form, entitled
“Credit Card Purchase Request,” for purchases that are made using a
government purchase card. The Litigation/Procurement Request form is
completed for every purchase, even when blanket funding; a blanket
purchase agreement; a purchase order; or a Requisition for Equipment,
Supplies or Services (Form OBD-186) was being used.

      Pages 2-4 (Procurement Checklist and Competition/Sole Source
Worksheet) are attached to the Litigation/Purchase Request form for each
transaction. Page 2, the Procurement Checklist, is used to document
contractor information, open market information, justification for not using a
small business, and accessibility standards. Page 3 is a continuation of
page 2 and documents undue burden; energy efficiency; Greening the
Government (Federal Acquisition Regulation, Subpart 23.404); and price
reasonableness, including the price reasonableness basis. Page 4, the


      15
           See Appendix II for a copy of the Southern District of Florida’s form.

                                            27
Competition/Sole Source Worksheet, documents price quotes from three
vendors and documents the sole source justification, when required.

     In our view, the advantages of using the Southern District of Florida’s
procurement form are:

     •     The form thoroughly documents the required data elements for a
           purchase transaction.

     •     The form has the approving officer’s name typed or printed in a
           box — since some signatures are hard to read/interpret.

      We recognize that some of the USAOs’ purchases are made using
blanket purchase agreements, blanket funding, and purchase orders that are
documented on specific forms, such as the Form OBD-186 (Requisition for
Equipment, Supplies or Services). However, we believe that a single
standardized procurement form should be used in conjunction with the other
ordering forms.


Conclusion

      If only one accurately structured and comprehensive procurement
form was used, such as the one used by the Southern District of Florida,
there would be less opportunity for the purchaser to inadvertently skip a
procurement requirement. Also, there would be fewer opportunities for
noncompliance with the federal government’s acquisition requirements if
each of the USAOs were to use one standard procurement form with all the
required procurement elements that apply to most purchases.


Recommendation

      We recommend that the Director of the Executive Office for United
States Attorneys:

7.   Design and use one standard procurement form that addresses all
     procurement requirements, specifically the items listed above from the
     Federal Acquisition Regulations and documents the process from the
     authorization to the actual receipt of the goods and services
     purchased.



                                    28
   STATEMENT ON COMPLIANCE WITH LAWS AND
                REGULATIONS

      As required by Government Auditing Standards, we tested selected
transactions and records at six USAOs and the EOUSA to obtain reasonable
assurance about the USAs’ compliance with laws and regulations that, if not
complied with, we believe could have a material effect on program
operations. Compliance with laws and regulations applicable to vendor
payments is the responsibility of the USAOs’ management.

      An audit includes examining, on a test basis, evidence about
compliance with laws and regulations. The specific regulations for which we
conducted tests are contained in the relevant portions of the following
guidance set out by the Treasury Department, the Comptroller General, and
the Office of Management and Budget.

     •     The U.S. Treasury Manual prescribes regulations to protect the
           government from fraud and loss, to take steps to discover fraud
           and attempted fraud involving expenditures, and to determine
           ways to prevent and detect fraud. (Authorized by
           31 U.S.C. §321, “General Authority of the Secretary.”)

     •     The Comptroller General’s Standards for Internal Control in the
           Federal Government contains the standards for establishing and
           maintaining systems of internal control for federal agencies.
           (Authorized by 31 U.S.C. §3511, “Prescribing Accounting
           Requirements and Developing Accounting Systems.”)

     •     Office of Management and Budget Circular A-123, Management
           Accountability and Control (Revised), provides guidelines for
           improving accountability and establishing management controls.
           (Authorized by 31 U.S.C. §3512, “Executive Agency Accounting
           and Other Financial Management Reports and Plans.”)

      Our tests indicated that, for the transactions tested, the USAOs
generally complied with the provisions of applicable laws and regulations.
With respect to those transactions not tested, nothing came to our attention
otherwise that caused us to believe that the USAOs were not in compliance
with the applicable laws.




                                   29
                                                                APPENDIX I

       OBJECTIVES, SCOPE, AND METHODOLOGY

      Our audit objective was to determine whether the USAOs’ controls and
procedures over the purchase and payment for goods and services using
third-party drafts, government purchase cards, electronic fund transfers, and
Treasury checks were adequate to ensure that vendor payments were made
in accordance with the policies prescribed by EOUSA, the Federal Acquisition
Regulations, and other relevant authorities.

       Payments resulting from the use of the government’s MasterCard for
official travel were excluded from our audit, because the traveler, not the
government, makes the payment.

      Our audit was performed in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and
included tests necessary to accomplish our audit objective stated above.

       During the audit, we selected two extra large districts, two large
districts, and two medium districts for testing. The Eastern District of New
York (Brooklyn) and the Southern District of Florida (Miami) were the extra
large offices. The District of New Mexico (Albuquerque) and the District of
Oregon (Portland) were the large offices. The District of Utah (Salt Lake
City) and the Eastern District of Tennessee (Knoxville) were the medium
offices. EOUSA in Washington, D.C., was also selected with the expectation
of reviewing large dollar value purchases.

     The scope of audit included tests of transactions occurring from
October 2001 through September 2002 (FY 2002). We conducted site visits
from November 2002 through April 2003, and gave an exit conference in
September 2003.

      Also required by the Government Auditing Standards is an assessment
of the reliability of computer-processed data when using data from computer
generated systems. In performing this audit, we obtained lists of payments
for purchases from EOUSA for each of the seven offices tested to generate
random samples. The payment records came from computer-generated
systems maintained by JMD containing third-party drafts, purchase card
purchases, electronic fund transfers, and Treasury checks.

      This audit was more limited than would be necessary to express an
opinion on JMD’s computer-processed data and associated payment
systems. Rather, the audit was to assess the controls over vendor
                                    30
                                                                                       APPENDIX I

payments made by EOUSA and the USAOs from those systems. Therefore,
we do not express an opinion on JMD’s computer-generated systems or
data. However, JMD’s computer-generated data was compared to other
supporting documentation at EOUSA and the district offices. Therefore, we
believe the data used was adequate for sampling, testing, and background
reporting purposes.

    The table below provides details of the number of transactions by
payment type in the universe at our seven test sites.

                    Transactions in Universe by Location and Payment Type

                                   Third-Party   Purchase Card                  Treasury        Total
                                     Drafts       Transactions     EFTs          Checks      Transactions
 District of New Mexico                  2,033               943          420         N/A1          3,396
 District of Oregon                      2,631              415            31          64           3,141
 EOUSA                                      57            1,277      1,734            182          3,250
 Eastern District of New York            4,212            1,248      1,488            458           7,406
 Eastern District of Tennessee           1,832              682            49           2           2,565
 District of Utah                        1,401            1,164             5           3          2,573
 Southern District of Florida            2,904              716      4,303            168           8,091
 Totals                                 15,070            6,445      8,030            877         30,422
Source: Data provided by EOUSA and JMD.
1
  No Treasury checks were obtained from EOUSA.


      The criteria that must be followed when purchasing goods or services
in the USAOs is the Government Purchase Card Program for Simplified
Acquisition, the Department of Justice Third Party Payment Policies and
Procedures Manual, the Federal Acquisition Regulations, the Justice
Acquisition Regulations, the applicable DOJ Order on delegation of authority,
and EOUSA’s policies and procedures on procurements and payment limits.

       At each of the audit sites, we sampled a minimum of 200 randomly
selected payments and tested these transactions against the purchasing
criteria stated above. The sampling methodology included judgmentally
selecting additional payments when issues came to our attention that
appeared to require further review. The result of these combined
procedures was seven separate samples totaling 1,517 payments
representing 5 percent of the universe of 30,422 transactions.




                                                 31
                                                                                                                             APPENDIX I

     The following two tables show a breakdown of the sampling
methodology by location.

                                       OIG Sampling Methodology




                                                                                        Tennessee
                                       District of




                                                       District of




                                                                         District of




                                                                                        District of




                                                                                                          District of




                                                                                                                             District of
                          Attorneys
                          Executive




                                                                         New York
                          Office for




                                                                                                                             Southern
                                                                         Eastern




                                                                                        Eastern
                                                       Oregon
                                       Mexico




                                                                                                                             Florida
                          United
                          States




                                                                                                          Utah
                                       New
 Transactions                                                                                                                              Totals

 Random                          218        209             200               215              202             202                 217      1,463
 Judgmental                        4          30                     8            0                   6                 6              0       54
 Totals                          222        239             208               215              208             208                 217      1,517
Source: OIG developed data based universes provided by EOUSA and JMD.


                                 Transactions in Sample by Location

                                                       Purchase
                                        Third-Party      Card                                             Treasury                    Total
                                           Drafts    Transactions                        EFTs              Checks                  Transactions
                                         Sampled       Sampled                         Sampled            Sampled                    Sampled
 District of New Mexico                           99          100                             40                             0               239
 District of Oregon                                  169                      38                      1                      0                208
 EOUSA                                                 5                      96                103                         18                222
 Eastern District of New York                        120                      36                  44                        15                215
 Eastern District of Tennessee                       147                      55                      6                      0                208
 District of Utah                                    117                      85                      5                      1                208
 Southern District of Florida                         73                      17                110                         17                217
 Totals                                              730                     427                309                         51              1,517
Source: OIG developed data based universes provided by EOUSA and JMD.


       The total dollars audited was $2,755,123, or 8.7 percent of the
$31,726,084 disbursed at the test sites. In addition, EOUSA reported that
all 94 district offices and EOUSA purchased over $155 million in goods and
services in FY 2002 from vendors using the four payment types previously
stated.

    The following two tables provide additional details on the dollar
amounts and types of payments made by the USAOs in FY 2002.




                                                           32
                                                                                           APPENDIX I

                      Dollar Amount of Transactions in Universe by Location

                                                    Dollar
                                                  Amount of                        Dollar
                                                   Purchase         Dollar       Amount of
                                   Dollar Amount     Card          Amount of      Treasury     Dollar Amount
                                     of Drafts   Transactions        EFTs          Checks      of Transactions
 District of New Mexico                 $810,491    $409,696         $224,134           N/A1        $1,444,321
 District of Oregon                      748,938        328,740       202,226        46,955         1,326,859
 EOUSA                                     6,828        833,668     10,131,283    2,333,033        13,304,812
 Eastern District of New York          2,540,119        773,534      2,133,575    1,181,041         6,628,269
 Eastern District of Tennessee           658,158        237,396       104,593        14,764         1,014,911
 District of Utah                        491,646        377,697        94,168        31,843           995,354
 Southern District of Florida          2,106,645        567,387      3,758,288      579,238         7,011,558

 Totals                               $7,362,825   $3,528,118      $16,648,267   $4,186,874       $31,726,084
Source: Data provided by EOUSA and JMD.
1
  No Treasury checks were obtained from EOUSA.



                      Dollar Amount of Transactions in Sample by Location

                                                   Dollar
                                                 Amount of                         Dollar
                                       Dollar     Purchase           Dollar      Amount of
                                     Amount of      Card           Amount of      Treasury     Dollar Amount
                                       Drafts   Transactions          EFTs         Checks      of Transactions
                                      Sampled     Sampled           Sampled       Sampled          Sampled
 District of New Mexico                 $34,677      $58,777           $40,041            $0         $133,495
 District of Oregon                       40,605          15,052          236             0            55,893
 EOUSA                                       434          48,882     1,210,515      562,368         1,822,199
 Eastern District of New York             66,928          12,558       61,677         6,065           147,228
 Eastern District of Tennessee            75,361          13,867       23,977             0           113,205
 District of Utah                         41,553          22,851       94,168        16,401           174,973
 Southern District of Florida             76,678          18,062      126,238        87,152           308,130

 Totals                                 $336,236        $190,049    $1,556,852     $671,986        $2,755,123
Source: OIG developed data based universes of transactions provided by EOUSA and JMD.


      In this audit, we reviewed 10,111 documents and interviewed
153 personnel involved in the acquisition and payment processes that
included administrative officers, approving officers, approving officials,
budget officers, purchase cardholders, disbursing officers, electronic fund
transfer submitters and subcertifiers, EOUSA’s Chief Financial Officer and
Chief Operating Officer, various other officials within the USAs’ organization,
and key personnel in JMD. Interviews included a series of general questions
covering payment methods, specific questions regarding the individual
                                                   33
                                                                  APPENDIX I

payment mechanisms and procedures, delegated authority limits, security of
unused drafts, responsibilities of specific personnel in the purchase and
payment of goods and services, separation of duties, location of accountable
property, and applicable training received.

       The analysis of the 1,517 purchase transactions included determining
whether separation of duties occurred on each transaction. We also looked
to see if applicable individuals were designated as accountable officers by
their respective U.S. Attorney and signed a Form OBD-234 acknowledging
personal liability for loss or improper payment of funds.

       When reviewing each purchase transaction, we verified that proper
approvals were given prior to the purchase, the amount paid was supported
by an original invoice, required sources were used and documented as being
first considered, receiving documentation showed a signature and date of
receipt, taxes were excluded from payments, and the goods and services
purchased reasonably met the USAOs’ official needs. Our tests also included
a review for split purchases, duplicate payments, delegated procurement
limits that were exceeded, and fraudulent transactions. Transactions were
then tested from the reverse — the documents in the file cabinet back
toward the data in the output reports provided by EOUSA. These
transactions were judgmentally selected from the USAO’s files and worked
back through the acquisition process up to the procurement form that
contained documentation of approval and obligation.

       While testing transactions paid by a government purchase card, we
reviewed cardholders to see who exceeded their delegated procurement
authority limits and that the cardholders were only making purchases that
had been properly approved by an approving officer. We also checked to
see if items prohibited by the Government Purchase Card Program for
Simplified Acquisition guidelines were procured and then verified that the
supporting documents corresponded to the actual charges listed on the
monthly purchase card statement. Another test performed was to determine
if cardholders were properly retaining all supporting documents and
reconciling all transactions to their monthly purchase card statements by
signing and dating the monthly statements.

       For transactions paid by third-party drafts, the disbursing officer’s
signature on the draft was reviewed to determine that only designated
individuals were signing the third-party drafts. We also verified that the
disbursing officer was not the same person who signed the procurement
form as the approving officer or budget officer for that transaction. Our
tests verified that copies of the drafts were retained in proper locations as
                                     34
                                                                 APPENDIX I

set forth in acquisition and payment regulations, supporting documentation
contained all required paid draft elements, and the drafts were printed with
a computer printer and not handwritten. Another test consisted of
comparing the amount and vendor name on the draft to the amount and
vendor name on the support documents.

      Voided drafts were reviewed to make sure that the word “VOID” was
stamped or written over the signature line on the face of the voided draft
and that the voided draft information was properly recorded in the numeric
log. Audit testing also looked for retention of copies of the drafts. Further,
a sample of third-party drafts paid to disbursing officers was reviewed to
verify that disbursing officers were not signing draft payments payable to
themselves.

      In reviewing transactions paid through electronic fund transfers, in
addition to other previously mentioned tests, we checked that separation of
duties occurred by comparing the submitter’s User ID to the subcertifier’s
User ID. Electronic fund transfer transactions were reviewed to see if
delegated payment limits were exceeded.

       For monthly purchase card statements, audit testing included a review
for signatures and dates of review by the cardholder and the approving
official. Additional testing included a review for notations made by the
cardholder regarding credits or items to be credited. When we observed
notations on the monthly statements, we followed up to ensure credits were
taken and received.

      For the transactions involving accountable property, purchased
property was traced to the ARGIS property management system controlled
by JMD and physically verified that those items were in the USAOs. A
sample not to exceed 20 items purchased in FY 2002 for each USAO site
tested were selected from the ARGIS records tested and located as well.

     While at each audit site, audit testing included a review of the latest
EARS report and the associated district office’s response to look for vendor
payment issues and deficiencies that were not corrected.




                                     35
                            APPENDIX II

SOUTHERN DISTRICT OF FLORIDA’S
     PROCUREMENT FORM




              36
     APPENDIX II




37
     APPENDIX II




38
     APPENDIX II




39
     APPENDIX II




40
     APPENDIX III




41
41
     APPENDIX III




42
42
     APPENDIX III




43
43
     APPENDIX III




44
44
     APPENDIX III




45
45
     APPENDIX III




46
46
     APPENDIX III




47
47
     APPENDIX III




48
48
     APPENDIX III




49
49
     APPENDIX III




50
50
     APPENDIX III




51
51
     APPENDIX III




52
52
     APPENDIX III




53
53
     APPENDIX III




54
54
     APPENDIX III




55
55
                                                              APPENDIX IV

         OFFICE OF THE INSPECTOR GENERAL,
     AUDIT DIVISION, ANALYSIS AND SUMMARY OF
       ACTIONS NECESSARY TO CLOSE REPORT

      The EOUSA’s response to the audit (Appendix III) describes the
actions taken or plans for implementing our recommendations. This
appendix summarizes our response and the actions necessary to close the
report.

Recommendation Number:

1.    Closed. The JMD Finance staff has confirmed that subcertifiers cannot
      bypass their delegated payment limits.

2.    Resolved. The Facilities and Support Services Staff have requested
      that the purchase card statement be modified. To close this
      recommendation, please provide us with the final determination made
      by BankOne to modify the purchase card statement.

3.    Resolved. The Resource Management and Planning Staff will discuss
      the redesign and reissuance of the Accountable Officers Signature
      Form, OBD-234. To close this recommendation, please provide us
      with the final determination made by JMD concerning the redesign and
      reissuance of the Form OBD-234.

4.    Resolved. The Facilities and Support Services Staff will request that
      JMD establish new dollar limits for purchases made from UNICOR,
      NIB/NISH, and FEDSTRIP by Contracting Officers. To close this
      recommendation, please provide us with the final determination made
      by JMD to establish new dollar limits and to modify the existing
      Contracting Officers Certificates indicating the new dollar limits.

5.    Resolved. The EARS staff is in the process of revising their evaluation
      guide. To close this recommendation, please provide us with a copy of
      the latest EARS guide noting the changes made.

6.    Resolved. The EARS staff is in the process of revising their evaluation
      guide to expand their review to all years since the last review. To
      close this recommendation, please provide us with a copy of the latest
      EARS guide noting the sampling that covers all years since the last
      review.

                                     56
                                                           APPENDIX IV


7.   Resolved. JMD now mandates use of their comprehensive checklist in
     all acquisitions exceeding $2,500. EOUSA has requested that JMD
     enhance their form to add elements of value. We suggest that
     additional elements such as the name of the purchase card holder, the
     date goods or services were ordered, the person who received and
     checked the goods or services, the approving officer’s name and date,
     the budget officer’s name and date, and simple instructions for
     completing the form requiring initials of the person
     approving/performing the function be added to the existing mandatory
     checklist. To close this recommendation, please provide us with a
     copy of the final checklist noting the changes made to the form.




                                   57
